UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2332

United States of America
Plaintiff - Appellee
v.
Ronald Jermaine Jackson
Defendant - Appellant
Appeal from U.S. District Court for the District of Minnesota
(0:19-cr-00185-SRN-l)
JUDGMENT

Before KELLY, ERICKSON, and KOBES, Circuit Judges.

The court has carefully reviewed the original file of the United States District Court and
orders that this appeal be dismissed for lack of jurisdiction as it is premature.
July 08, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

CASE 0:19-cr-00185-SRN-KMM Document 1 Filed 07/16/19 Page lot3
J

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
UNITED STATES OF AMERICA,
Plaintiff,
v.

)
)
)
)
)
)

(1) RONALD JERMAINE JACKSON, and

)

(2) WILLIAM CHARLES GRAHAM,

)
)

INDICTMENT
18 U.S.C.
18 U.S.C.
18 U.S.C.
18 U.S.C.
18 TJ.S.C.
21 U.S.C.
28 U.S.C.

§2
§ 924(c)(l)(A)(ii)
§ 924(d)(1)
§ 981(a)(1)(C)
§ 1951
§ 853(p) .
§ 2461(c)

Defendants.
THE UNITED STATES GRAND JURY CHARGES THAT:
COUNT 1
(Interference with Commerce by Robbery)
On or about April 30, 2019, in the State and District of Minnesota, the
defendants,
RONALD JERMAINE JACKSON, and
WILLIAM CHARLES GRAHAM,
each aiding and abetting the other, did unlawfully obstruct, delay and affect
commerce, as defined by Title 18. United States Code. Section 1951(b)(3), and the
movement of articles and commodities in such commerce, by robbery, as defined by
Title 18, United States Code, Section 1951(b)(1), in that the defendants did
unlawfully take and obtain personal property, namely cellular telephones, from the
persons or in the immediate presence of employees of Wireless Visions d/b/a T-Mobile,
8069 Brooklyn Boulevard North, Brooklyn Park, Minnesota, a commercial business
then engaged in interstate commerce; against the employees’ will by means of actual
and threatened force, violence, and fear of injury, immediate and future, to their

SCANNFD
JUL 1 6 2019

CASE 0:19-cr-00185-SRN-KMM Document 1 Filed 07/16/19 Page 2 of 3

persons and property, that is, the defendants used a firearm to compel employees of ,
the business to relinquish to the defendants cellular telephones belonging to the
business, all in violation of Title 18, United States Code, Sections 2 and 1951.
COUNT 2
(Using, Carrying and Brandishing a Firearm
During and in Relation to a Crime of Violence)
On or about April 30, 2019, in the State and District of Minnesota, the
defendants,
RONALD JERMAINE JACKSON, and
WILLIAM CHARLES GRAHAM,
each aiding and abetting the other, during and in relation to a crime of violence for
which they may be prosecuted in a court of the United States, that is, the crime set
forth in Count 1 of this Indictment, which is hereby realleged and incorporated herein
by reference, did knowingly and unlawfully use, carry, and brandish a firearm, that
is, an Accu-Tek AT380 .380 caliber semi-automatic pistol, bearing serial number
041611, all in violation of Title 18, United States Code, Sections 2 and 924(c)(l)(A)(ii).
FORFEITURE ALLEGATIONS
If convicted of Count 1 of this Indictment, the defendants,
RONALD JERMAINE JACKSON, and
WILLIAM CHARLES GRAHAM,
shall forfeit.to the United States, pursuant to Title 18, United States Code, Section
981(a)(1)(C), and Title 28, United States Code, Section 2461(c), any property, real or
personal* which constitutes or is derived from proceeds traceable to the violation
alleged in Count 1 of this Indictment.
2

If convicted of Count 1 or Count 2 of this Indictment, the defendants,
RONALD JERMAINE JACKSON, and
WILLIAM CHARLES GRAHAM,
. shall forfeit to the United States, pursuant to Title 18, United States Code, Section
924(d)(1), and Title 28, United States Code, Section 2461(c), any firearms,
accessories, and ammunition involved in or used in connection with the violations
alleged in either Count 1 or 2 of this Indictment, including, but not limited to, an
Accu-Tek AT380 .380 caliber semi-automatic pistol, bearing serial number 041611
and any ammunition and accessories seized therewith.
If any of .the'above-described forfeitable property is unavailable for forfeiture,
the United States intends to seek the forfeiture of substitute property as provided for
• in Title 21, United States Code, Section 853(p), as incorporated by Title 28, United
States Code, Section 2461(c).

A TRUE BILL

SIGNATURE REDACTED
1

o

unite:

\S

p/U

\)5)' WWy

3

|),5 A
d K/Wri.
Trde llll

SUANNED
JUL16 2M9
U.S. DISTRICT COURT MPta

j

Additional material
from this filing is
available in the
Clerk's Office.

